      ".J'''l-S''VICES'Ú~'
  ..
 ~

~""
                                          OF HEALTH
                               DEPARTMENT OF HEALTH &.
                                                    &.HUMAN
                                                       HUMA SERVICES
                                                            SERVICES	                                                 Office of Inspector General
 "ó
      ~"                                                                                                              Washington, D.C. 20201
                                                                                                                                       20201

        ~Jr..Ò'~d3a




                                                                    SEP
                                                                    SEP 22 55 2008

                                                                               2008

                             TO:
                             TO:	            RADM W. Craig Vanderwagen, M.D.
                                             Assistant Secretary for Preparedness and Response

                                             Elizabeth M. Duke, Ph.D.
                                                                Ph.D.

                                             Administrator
                                             Administrator




                             FROM: --CSJMPh
                                              ~~~
                                             Health Resources and Services Administration

                                              ~~<..
                                   -1CS'-'JMPhE',  V~ngrin
                                               E'. V~ngrin
                                        Deputy Inspector General for Audit Services


                             SUBJECT: Allowability of
                             SUBJECT:	              of Costs Claimed for Reimbursement Under Florida's
                                                                                              Florida's Bioterrorism
                                                                                                        Bioterrorism
                                       Hospital Preparedness Program for the Period September 1, 2004, Through
                                       August
                                       August 31, 2006 (A-04-07-01048)

                                              31,2006   (A-04-07-01048)


                             Attached is an advance copy of of our final report on the allowability of
                                                                                                    of costs claimed for
                                                   Florida's Bioterrorism
                             reimbursement under Florida's     Bioterrorism Hospital
                                                                             Hospital Preparedness
                                                                                       Preparedness Program
                                                                                                     Program (the
                                                                                                               (the program)
                                                                                                                    program) for for
                                 period September
                             the period September 1,2004,
                                                    1,2004, through
                                                             through August
                                                                       August31,2006.
                                                                                31,2006, WeWe wil
                                                                                              willissue
                                                                                                   issuethis
                                                                                                         thisreport
                                                                                                              report to
                                                                                                                      to the
                                                                                                                          the Florida
                             Deparment of
                             Department  ofHealth
                                            Health (the
                                                    (the State
                                                         State agency)
                                                                agency) within
                                                                         within 55 business
                                                                                   business days.

                             Under section 319 of the Public Health Service Act, the program provides funds to State,
                             territorial, and
                             territorial, andmunicipal
                                               municipalgovernments
                                                           governents ororhealth
                                                                           health deparments
                                                                                  departmentstotoupgrade
                                                                                                  upgrade the
                                                                                                           the preparedness
                                                                                                               preparedness of
                             hospitals and collaborating entities to respond to bioterrorism and other public health
                             emergencies. From
                             emergencies.     From April
                                                    April 2002
                                                           2002 to
                                                                 to March
                                                                    March 2007,
                                                                           2007, the Health Resources and Services
                             Administration (HRSA)
                                               (HRSA) administered
                                                         administered the
                                                                       the program.
                                                                           program. InIn March 2007, responsibility for the
                             program waswas tr~sferred
                                             tr~sferred to
                                                         to the Assistant Secretary for Preparedness
                                                           the Assistant Secretary  for  Preparedness and
                                                                                                      and Response.
                                                                                                           Response.

                                                to determine whether the costs that the State agency claimed for
                             Our objective was to
                             reimbursement under the program for the period September 1, 2004, through August
                                                                                                          August 31, 2006,
                             were allowable, allocable, and reasonable.

                             Of
                             Of  the $53.4 million that the State agency claimed for reimbursement for the period
                             September 1,1, 2004,
                                            2004, through
                                                   through August
                                                             August 31,
                                                                     31, 2006,
                                                                         2006, approximately
                                                                                approximately $52
                                                                                                $52 million
                                                                                                     milion was
                                                                                                             was allowable,
                                                                                                                 allowable,
                                             reasonable. However,
                             allocable, and reasonable.   However, thethe State agency claimed
                                                                          State agency   claimed $50,988
                                                                                                  $50,988 in unallowable
                                                                                                             unallowable costs
                                                                                                                          costs that
                             were improperly charged to  to the program.
                                                                program. InIn addition,
                                                                              addition, $1,257,198
                                                                                        $1,257,198 may
                                                                                                     may be
                                                                                                          be unallowable
                                                                                                             unallowable because
                                       may not
                             the costs may   not be
                                                 be authorized
                                                    authorized byby Florida
                                                                    Floridastatutes.
                                                                             statutes. These
                                                                                       These deficiencies
                                                                                              deficiencies occurred
                                                                                                           occured because
                                                                                                                     because the
                             State agency did not have adequate policies and procedures to ensure that all costs claimed for
                             reimbursement complied with applicable laws, regulations, and program guidance.guidance.
Page 2 – RADM W. Craig Vanderwagen, Elizabeth M. Duke


We recommend that the State agency:

   •   refund $50,988 for costs that were improperly charged to the program;

   •   determine, as a matter of law, whether the State agency’s initiation of staffing contracts
       bypassed the position limitations imposed by the Florida Legislature and, if so:

           o refund the $1,257,198 in unallowable costs and

           o stop initiating staffing contracts; and

   •   improve policies and procedures to ensure that all costs claimed for reimbursement
       comply with applicable laws, regulations, and program guidance.

In written comments on our draft report, the State agency agreed with our findings regarding the
$50,988 in unallowable costs. With respect to the $1,257,198 in potentially unallowable costs,
the State agency said that it was pursuing this issue with the State’s Department of Management
Services. We recognize that State entities other than the Attorney General’s office may be able
to determine whether the State agency violated the number of authorized positions in the
appropriations acts. Accordingly, we have modified the recommendation included in our draft
report and no longer specify that a legal opinion be obtained from the Attorney General’s office.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov or
Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7800 or
through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-07-01048.


Attachment
                                 DEPARTMENTOF
                                DEPARTMENT OFHEALTH
                                              HEALTHAND
                                                    ANDHUMAN
                                                        HUMANSERVICES
                                                              SERVICES
                                                      Office
                                                                                                                              OffceofofInspector
                                                                                                                                        InspectorGeneral



(J

 1' sia.VICES                                                                                                                                      General
                                                                                                                              Office
                                                                                                                                Offce ofAudit
                                                                                                                                      of  AuditServices
                                                                                                                                                 Services

..~ J                                                                                                                 6161Forsyth
                                                                                                                                    REGION
                                                                                                                                     REGION IV
                                                                                                                           ForsythStreet,
                                                                                                                                             iv

                                                                                                                                   Street,S.W.,
                                                                                                                                           S.W.,Suite
                                                                                                                                                 Suite3T41
                                                                                                                                                       3T41
                                                                                                                            Atlanta,
                                                                                                                              Atlanta,Georgia
                                                                                                                                       Georgia30303
                                                                                                                                                30303


                                                                  SEP
                                                                   SEP 3
                                                                       30  2008
                                                                         0 2008


             ReportNumber:
            Report  Number: A-04-07-01048
                            A-04-07-0lO48

            Ana rr. Viamonte
            Ana~.   Viamonte Ros,
                              Ros, M.D.,
                                   M.D., M.P.H.
                                         M.P.H.
             Surgeon General
            Surgeon  General

             FloridaDepartment
            Florida  Deparent ofof Health
                                    Health
             4052  Bald Cypress   Way,
            4052 Bald Cypress Way, Bin Bin#BOO
                                           #BOO

            Tallahassee,  Florida  32399-1728
            Tallahassee, Florida 32399-1728

            Dear Dr.
            Dear Dr. Viamonte
                     Viamonte Ros:
                              Ros:

            Enclosed       is the U.S. Department of Health
            Enclosed is the U.S. Department of 

                                                               Health and
                                                                        andHuman
                                                                            HumanServices
                                                                                    Services(HHS),
                                                                                              (HHS),Office
                                                                                                      Offceofof
            Inpector General
            Inspector      General (GIG),(OIG), final
                                                   final report entitled "Allowability
                                                         report entitled  "Allowabilty of
                                                                                       of Costs
                                                                                          Costs Claimed
                                                                                                  Claimed for
                                                                                                           for
            Reimbursement Under
            Reimbursement             Under Florida's
                                                 Florida's Bioterrorism
                                                            Bioterrorism Hospital
                                                                          Hospital Preparedness
                                                                                   Preparedness Program
                                                                                                  Program for
                                                                                                           for the
                                                                                                               the
            Period      September          1,2004,   Through    August   31,2006."  We  wil
            Period September 1,2004, Through August 31,2006." We will forward a copy ofthis  forward  a copy  ofthis
            report to
            report    to the
                          the HHS
                                HHS action
                                         action official
                                                   official noted
                                                            noted on
                                                                  on the
                                                                      the following
                                                                          following page
                                                                                    page for
                                                                                         for review
                                                                                              review and
                                                                                                     and any
                                                                                                         any action
                                                                                                              action
            deemed       necessar.

            deemed necessary.

            The HHS
            The    HHS actionaction official
                                        offcial wil willmake
                                                           makeffnal fmaldetermination
                                                                             determination as       as to
                                                                                                        to actions
                                                                                                           actions taken
                                                                                                                   taken on
                                                                                                                         on all
                                                                                                                            all matters
                                                                                                                                matters
            reported. We request that you respond to this official within 30 days from the date of this
            reported. We request that you respond to this offfcial within 30 days ftom the date of

                                                                                                                                     this
            letter.
            letter. Your
                       Your response
                                response should shouldpresent
                                                           present any  any comments
                                                                               comments or      or additional
                                                                                                    additional information
                                                                                                                 information that
                                                                                                                             that you
                                                                                                                                  you
            believe
            believe may may havehave aa bearing
                                            bearng on    on the
                                                              the ffnal
                                                                    final determination.
                                                                            determination.

            Pursuant to the principles ofthe
            Pursuant to the principles of 

                                                  Freedom
                                            the Freedom of 
    of Information Act,
                                                                                  Act, 55 U.S.C.
                                                                                          U.S.C. §§552,
                                                                                                    552,as
                                                                                                         asamended
                                                                                                             amended
            by
            by Public Law 104-231, OrG reports generally are made available to the public to the
               Public  Law  104-231,   OrG   reports      generally   are made   available  to the public to  the
            extent
            extent the
                   the information
                       information isis not
                                        not subject
                                            subject to   to exemptions
                                                             exemptions in in the
                                                                              the Act
                                                                                  Act (45
                                                                                        (45 CFR
                                                                                            CFR part
                                                                                                 par 5).
                                                                                                     5).
            Accordingly,
            Accordingly, this
                           this report
                                report wil
                                       willbebeposted
                                                 postedon    onthe
                                                                theInternet
                                                                     Internetatathttp://oig.hhs.gov.
                                                                                 http://oig.hhs.gov.

            If you have any questions or comments about this report, please do not hesitate to call me,
             If you have any questions or comments about this report, please do not hesitate to call me,
            or
             or contact
                contact Mark
                        Mark Wimple,
                             Wimple, Audit
                                      Audit Manager,
                                            Manager, at
                                                     at (919)
                                                        (919) 790-2765,   extension 24,
                                                               790-2765, extension   24, or
                                                                                         or through
                                                                                            though e-e-
            mail  at Mark.Wimple(7oig.hhs.gov. Please refer to  report number  A-04-07-01048
             mail at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-07-01048 in allin all
            correspondence.
             correspondence.

                                                                          Sincerely,
                                                                          Sincerely,

                                                                          tP~'J (J~
                                                                          Peter
                                                                           PeterJ.J.Barbera
                                                                                     Barbera
                                                                          Regional
                                                                           RegionalInspector
                                                                                      InspectorGeneral
                                                                                                General
                                                                           for
                                                                            for Audit    Services .
                                                                                Audit Services
           Enclosure
            Enclosure
Page 2 – Ana M. Viamonte Ros, M.D., M.P.H.


Direct Reply to HHS Action Official:

Team Leader, Compliance Team, OFAM/DFI
Health Resources and Services Administration
Parklawn Building, Room 11A-55
5600 Fishers Lane
Rockville, Maryland 20857
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



   ALLOWABILITY OF COSTS
CLAIMED FOR REIMBURSEMENT
      UNDER FLORIDA’S
   BIOTERRORISM HOSPITAL
PREPAREDNESS PROGRAM FOR
  THE PERIOD SEPTEMBER 1,
 2004, THROUGH AUGUST 31,
           2006




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-04-07-01048
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under section 319 of the Public Health Service Act, the Bioterrorism Hospital Preparedness
Program (the program) provides funds to State, territorial, and municipal governments or health
departments to upgrade the preparedness of hospitals and collaborating entities to respond to
bioterrorism and other public health emergencies. From April 2002 to March 2007, the Health
Resources and Services Administration (HRSA) administered the program. In March 2007, the
Pandemic and All-Hazards Preparedness Act (P.L. No. 109-417, December 19, 2006) transferred
responsibility for the program from HRSA to the Assistant Secretary for Preparedness and
Response.

In Florida, the Department of Health, Office of Public Health Preparedness (the State agency),
administers the program. For the period September 1, 2004, through August 31, 2006, the State
agency claimed program reimbursement totaling $53.4 million.

OBJECTIVE

Our objective was to determine whether the costs that the State agency claimed for
reimbursement under the program for the period September 1, 2004, through August 31, 2006,
were allowable, allocable, and reasonable.

SUMMARY OF FINDINGS

Of the $53.4 million that the State agency claimed for reimbursement for the period
September 1, 2004, through August 31, 2006, approximately $52 million was allowable,
allocable, and reasonable. However, the State agency claimed $50,988 in unallowable costs that
were improperly charged to the program. In addition, $1,257,198 may be unallowable because
the costs may not be authorized by Florida statutes. These deficiencies occurred because the
State agency did not have adequate policies and procedures to ensure that all costs claimed for
reimbursement complied with applicable laws, regulations, and program guidance.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $50,988 for costs that were improperly charged to the program;

   •   determine, as a matter of law, whether the State agency’s initiation of staffing contracts
       bypassed the position limitations imposed by the Florida Legislature and, if so:

           o refund the $1,257,198 in unallowable costs and

           o stop initiating staffing contracts; and




                                                 i
   •   improve policies and procedures to ensure that all costs claimed for reimbursement
       comply with applicable laws, regulations, and program guidance.

AUDITEE COMMENTS

In written comments on our draft report, the State agency agreed with our findings regarding the
$50,988 in unallowable costs. With respect to the $1,257,198 in potentially unallowable costs,
the State agency said that it was pursuing this issue with the State’s Department of Management
Services.

The complete text of the State agency’s comments is included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We recognize that State entities other than the Attorney General’s office may be able to
determine whether the State agency violated the number of authorized positions in the
appropriations acts. Accordingly, we have modified the recommendation included in our draft
report and no longer specify that a legal opinion be obtained from the Attorney General’s office.




                                                ii
                                                 TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION                 ..........................................................................................................1

        BACKGROUND .....................................................................................................1
            Bioterrorism Hospital Preparedness Program..............................................1
            Florida Program Funding.............................................................................1

        OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
             Objective .....................................................................................................2
             Scope ..........................................................................................................2
             Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ...................................................................3

        UNALLOWABLE PROGRAM COSTS.................................................................3
            Federal Requirements ..................................................................................4
            Unallocable Costs .......................................................................................4
            Duplicated Costs .........................................................................................4

        POTENTIALLY UNALLOWABLE PROGRAM COSTS ...................................4
             State and Federal Requirements...................................................................4
             Costs for Staffing Contracts.........................................................................5

        INADEQUATE POLICIES AND PROCEDURES ...............................................5

        RECOMMENDATIONS ........................................................................................6

        AUDITEE COMMENTS.........................................................................................6

        OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................6

APPENDIX

        AUDITEE COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Bioterrorism Hospital Preparedness Program

The Bioterrorism Hospital Preparedness Program (the program) provides funds to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. 1 From April 2002 to March 2007, the Health Resources and Services
Administration (HRSA) administered the program. In March 2007, the Pandemic and All-
Hazards Preparedness Act (P.L. No. 109-417, December 19, 2006) transferred responsibility for
the program from HRSA to the Assistant Secretary for Preparedness and Response.

HRSA elected to establish 12-month program years for 2003 through 2005 and then extended the
years for up to 24 additional months. 2 HRSA issued a notice of award to each grantee to set
forth the approved budget as well as the terms and conditions of the individual cooperative
agreement.

To monitor the expenditure of these funds, HRSA required grantees to submit financial status
reports (FSR) showing the amounts expended, obligated, and unobligated. Financial reporting
requirements (45 CFR § 92.41(b)(3)) for Department of Health and Human Services (HHS)
grants to State and local governments state: “If the Federal agency does not specify the
frequency of the report, it will be submitted annually.” Because program guidance for 2003 was
silent on the frequency of submission, annual FSRs were required for that year. Program
guidance for 2004 and 2005 required quarterly interim FSRs and a final FSR 90 days after the
end of the budget period, which we refer to in this report as a “program year.”

Florida Program Funding

In Florida, the Department of Health, Office of Public Health Preparedness (the State agency),
administers the program and distributes funds to subrecipients to carry out program objectives.
For the period September 1, 2004, through August 31, 2006, the State agency was awarded a
total of $52.3 million and expended $53.4 million. 3



1
 Congress initially authorized funding for this program under the Department of Defense and Emergency
Supplemental Appropriations for Recovery From and Response to Terrorist Attacks on the United States Act, 2002,
P.L. No. 107-117, through the Public Health and Social Services Emergency Fund at section 319 of the Public
Health Service Act (42 U.S.C. § 247d). In June 2002, Congress enacted section 319C-1 of the Public Health Service
Act (42 U.S.C. § 247d-3a) to support efforts to counter potential terrorist threats and other public health
emergencies.
2
 For Florida, program year 2003 was September 1, 2003, to February 28, 2006; program year 2004 was
September 1, 2004, to August 31, 2006; and program year 2005 was September 1, 2005, to August 31, 2007.
3
    The expenditures exceeded the awarded amount because they included amounts awarded in prior program years.


                                                         1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the costs that the State agency claimed for
reimbursement under the program for the period September 1, 2004, through August 31, 2006,
were allowable, allocable, and reasonable.

Scope

Our audit covered the $53.4 million in direct ($53,181,859) and indirect ($197,749) costs that the
State agency claimed for program activities during the 2-year period September 1, 2004, through
August 31, 2006, regardless of the program year to which the obligations and expenditures were
related. We limited our review of direct costs to a nonstatistical sample of 90 program
expenditures totaling $9,557,540.

We did not review the overall internal control structure of the State agency or its subrecipients. 4
We limited our review of internal controls to obtaining an understanding of (1) the procedures
that the State agency and two subrecipients, Florida State University and Sacred Heart Hospital,
used to account for program funds and (2) the State agency’s subrecipient monitoring
procedures.

We conducted our fieldwork at the State agency and Florida State University in Tallahassee,
Florida, and at Sacred Heart Hospital in Pensacola, Florida, from December 2006 through
January 2008.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, program guidance, and notices
        of award for 2004 and 2005;

    •   reviewed the State agency’s accounting procedures and monitoring of subrecipients;

    •   tested FSRs for completeness and accuracy and reconciled the amounts reported on FSRs
        to the accounting records and notices of award;




4
 Office of Management and Budget (OMB) Circular A-133, “Audits of States, Local Governments, and Non-Profit
Organizations,” defines a subrecipient as a non-Federal entity that expends Federal awards from a passthrough entity
and sets forth certain Federal audit requirements. Payments to vendors for goods or services required for the
conduct of a Federal program are not subject to the audit requirements. During the audit period, the State agency
considered all recipients of program funds to be vendors rather than subrecipients. The State agency’s judgment in
making these determinations was outside the scope of our audit.


                                                         2
    •    verified that the State agency claimed indirect costs using the rate and base in its “State
         and Local Rate Agreement” approved by the HHS Division of Cost Allocation; 5

    •    interviewed officials and employees from the Florida Department of Health and the
         Florida Office of Auditor General;

    •    reviewed 63 percent of the positions funded by the program during 2005 for evidence of
         supplanting; 6

    •    selected and tested a nonstatistical sample of 90 expenditures to determine whether the
         State agency expended program funds for allowable, allocable, and reasonable costs; and

    •    reviewed two subrecipients’ procedures to account for funds expended and tested a total
         of 101 nonstatistically selected subrecipient expenditures for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Of the $53.4 million that the State agency claimed for reimbursement for the period
September 1, 2004, through August 31, 2006, approximately $52 million was allowable,
allocable, and reasonable. However, the State agency claimed $50,988 in unallowable costs that
were improperly charged to the program. In addition, $1,257,198 may be unallowable because
the costs may not be authorized by Florida statutes. These deficiencies occurred because the
State agency did not have adequate policies and procedures to ensure that all costs claimed for
reimbursement complied with applicable laws, regulations, and program guidance.

UNALLOWABLE PROGRAM COSTS

Of the 90 sampled expenditures, 2 expenditures totaling $50,988 were improperly charged to the
program because they either were not allocable to the program or duplicated a prior payment. As
a result, the State agency charged the Federal award $50,988 for unallowable program costs.




5
 OMB has designated the Division of Cost Allocation as the cognizant Federal agency for reviewing and negotiating
facility and administrative (indirect) cost rates that grantee institutions use to charge indirect costs associated with
conducting Federal programs.
6
 Section 319C-1(j)(2) of the Public Health Service Act (42 U.S.C. § 247d-3a(j)(2)) states that program funds are
meant to augment current funding and not to replace or supplant any other State and local funds provided for these
activities.


                                                           3
Federal Requirements

Federal regulations (2 CFR part 225, “Cost Principles for State, Local, and Indian Tribal
Governments”) (OMB Circular A-87, hereinafter referred to as “the Circular”) establish the
standards for States to determine the allowability of costs. In general, the Circular provides that
an allowable cost must be necessary to the performance of the Federal award, reasonable,
consistently applied, allocable to the program, and adequately documented (2 CFR part 225,
Appendix A, section C.1). A cost is allocable to the grant if the goods or services involved are
chargeable or assignable to the grant in accordance with the relative benefits received (2 CFR
part 225, Appendix A, section C.3.a).

Unallocable Costs

For one sampled expenditure, the State agency improperly charged $26,004 to the Federal award
for payroll and associated indirect costs that were not allocable to the program. Between
September 2005 and February 2006, the State agency charged 100 percent of one employee’s
salary to the program even though the employee spent half of his time on activities that were
unrelated to the program. This improper charge occurred because the employee completed a
certification report rather than a personnel activity report. Certification reports record time spent
working on a single Federal award or cost objective. Personnel activity reports (or equivalent
documentation), however, record the distribution of time spent working on multiple activities or
cost objectives. The employee indicated on the certification report that he had worked on both
the HRSA and Centers for Disease Control and Prevention bioterrorism programs. Although the
State agency had allocation procedures, it did not detect the error.

The State agency acknowledged that it had not equitably charged the $26,004 ($20,803 for
payroll and $5,201 for associated indirect costs) to the program and that it should have
distributed the costs among the benefiting activities.

Duplicated Costs

For one sampled expenditure, the State agency improperly charged $24,984 to the Federal award
for costs that it had already charged. The State agency paid a vendor twice, citing the same
invoice for air purifier units and filters, and charged the program both times. As a result, the
$24,984 was unallowable.

POTENTIALLY UNALLOWABLE PROGRAM COSTS

Expenditures totaling $1,257,198 may not be authorized under Florida statutes; therefore, these
costs may be unallowable under Federal awards.

State and Federal Requirements

Florida law limits the number of authorized positions for a Florida State agency to the total
number of positions provided in the appropriations acts, unless otherwise expressly provided by
law (Florida Statutes, Title XIV, section 216.262(1)(a)). Exceptions to this limitation for the



                                                  4
State agency apply to positions funded by the County Health Department Trust Fund or the
United States Trust Fund (Florida Statutes, Title XIV, section 216.2625(2)). Florida law also
describes a process for requesting and receiving approval to increase the number of authorized
positions (Florida Statutes, Title XIV, section 216.262(1)(a)).

The Circular (2 CFR part 225, Appendix A, section C) provides basic standards governing the
allowability of costs claimed for reimbursement under Federal awards to State and local
governments. Among these standards, section C.1.c. specifies that to be allowable under Federal
awards, costs must “be authorized or not prohibited under State or local laws or regulations.”

Costs for Staffing Contracts

The State agency claimed costs of $1,257,198 related to contracts with other organizations, i.e.,
State universities, a local community college, and a private entity. The contracts were used to
acquire staff (contracted employees) to perform grant-related activities in lieu of using agency-
authorized positions or outsourcing the services.

In previous audit reports, 7 which were supported by a legal opinion from its counsel, the Florida
Office of Auditor General reported that the State agency had:

    •   bypassed the position limitations imposed by the Florida Legislature by initiating staffing
        contracts with other governmental organizations,

    •   used Federal funds to procure more positions than permitted under State law, and

    •   used another governmental agency to acquire staffing services from a private
        organization on the State agency’s behalf without the express statutory authority to do so.

The Florida Department of Health’s Office of General Counsel (the General Counsel) maintained
that the State agency was authorized to enter into contracts for services that otherwise would be
performed by agency employees. Although we do not dispute the General Counsel’s position
that the State agency may enter into contracts for services, the General Counsel did not address
the Office of Auditor General’s position that the State agency used Federal funds to procure
more positions than permitted under State law.

Absent some provision of law that permits the State agency to exceed the total number of
authorized positions that are provided in the State’s appropriations acts, the $1,257,198 expended
for the costs of acquiring staff through contracting may be unallowable.

INADEQUATE POLICIES AND PROCEDURES

The State agency claimed unallowable and potentially unallowable costs because it did not have
adequate policies and procedures to ensure that all costs claimed for reimbursement complied
with applicable laws, regulations, and program guidance.
7
 Report No. 2005-158, dated March 2005, and Report No. 2006-152, dated March 2006, for the fiscal years ended
June 30, 2004, and 2005, respectively.


                                                       5
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $50,988 for costs that were improperly charged to the program;

   •   determine, as a matter of law, whether the State agency’s initiation of staffing contracts
       bypassed the position limitations imposed by the Florida Legislature and, if so:

           o refund the $1,257,198 in unallowable costs and

           o stop initiating staffing contracts; and

   •   improve policies and procedures to ensure that all costs claimed for reimbursement
       comply with applicable laws, regulations, and program guidance.

AUDITEE COMMENTS

In written comments on our draft report, the State agency agreed with our findings regarding the
$50,988 in unallowable costs. The State agency said that it would update and reinforce its
policies and procedures to prevent future violations of grant requirements and work with HRSA
to revise its financial reports.

With respect to the $1,257,198 in potentially unallowable costs, the State agency said that the
Florida Department of Health’s Office of General Counsel and a lawyer for the Executive Office
of the Governor had concluded that an Attorney General opinion was not warranted at this time.
The State agency also said that it was pursuing this issue with the Department of Management
Services, the agency that oversees the administration of State contract procurement and statutes.

The complete text of the State agency’s comments is included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Our expectation is that the State agency will definitively resolve the question of whether State
law, including Florida Statutes, Title XIV, section 216, limits the total number of staff positions
that the State agency was authorized to procure using Federal funds. We recognize that State
entities other than the Attorney General’s office may be able to issue such a decision.
Accordingly, we have modified the recommendation included in our draft report and no longer
specify that a legal opinion be obtained from the Attorney General’s office.




                                                 6
APPENDIX
APPENDIX
 Page 1 of 3
APPENDIX
 Page 2 of 3
APPENDIX
 Page 3 of 3
